                          U.S. Department of Agriculture

                              Office of Inspector General
                                         Northeast Region




              Audit Report


Animal and Plant Health Inspection Service’s
  Transfer Authority of Program Funding




                               Report No. 33601-03-Hy
                                            April 2008
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250


April 21, 2008


REPLY TO
ATTN OF:         33601-03-Hy

TO:              Cindy Smith
                 Administrator
                 Animal and Plant Health Inspection Service

ATTN:            Dr. Gregory Parham
                 Deputy Administrator
                 Marketing and Regulatory Programs Business Services

FROM:            Robert W. Young /s/
                 Assistant Inspector General
                   for Audit

SUBJECT:         Animal and Plant Health Inspection Service’s Transfer Authority of
                 Program Funding


This report presents the results of our audit of Animal and Plant Health Inspection
Service’s (APHIS) transfer authority of program funding. We initiated this audit in
response to a request received from Congressman Mike Rogers. Congressman Rogers
requested that the Inspector General perform audit work to substantiate allegations that
APHIS’ Veterinary Services (VS) was inappropriately transferring program funds.

We determined that APHIS is performing transfers in accordance with appropriations
language and APHIS guidelines. We observed the transfers are between fund accounts of
programs within APHIS-VS. In addition, we determined that APHIS is accurately
tracking time and attendance information as submitted by its employees. Based on our
testing, we did not find that APHIS was mischarging expenses.

BACKGROUND

APHIS, an agency within the Department of Agriculture, protects and promotes
agriculture in the United States by keeping agricultural pests and diseases from entering
the country, facilitating agricultural exports, and ensuring science-based standards in
agricultural trade. Within APHIS, VS protects and improves the health, quality, and
marketability of our Nation’s animal products. VS prevents, controls, and/or eliminates
animal diseases, and monitors and promotes animal health and productivity.
Cindy Smith                                                                             2


APHIS receives an annual appropriation from Congress for pest and disease
management, including allocations for the emergence of outbreaks. In addition, APHIS
receives an annual transfer of funds from the Commodity Credit Corporation to assist in
addressing the occurrence of emergency outbreaks that otherwise could not be prevented
with the use of the annual appropriation. A substantial portion of APHIS’ annual
appropriation is received for salaries and expenses, which is used to carryout the mission
of the agency. Additional allocations addressed in the appropriation include funding for
emergency occurrences, no-year funding, and building and facilities. APHIS disburses
these funds to the Area Veterinarian in-charge to carryout program operations in each
State.

OBJECTIVE

The objective of this audit was to determine if APHIS-VS’ Eastern Region
inappropriately shifted funds between program accounts.

SCOPE AND METHODOLOGY

We performed fieldwork between February and March 2008 at the Eastern Regional
office in Raleigh, North Carolina, and the area office in Harrisburg, Pennsylvania. To
accomplish our objectives, we: (1) interviewed APHIS’ budget personnel and
administrative officers, (2) analyzed the Agriculture, Rural Development, Food and Drug
Administration, and Related Agencies Appropriations Act, 2006 and 2007 continuing
resolution appropriation to identify if it contained specific language prohibiting the
transfer of funds, and (3) reviewed a sample of transactions to identify if funding was
inappropriately transferred between program accounts.

To test a sample of transactions, we judgmentally selected four States (Maryland, Maine,
Pennsylvania, and Michigan) to determine how the Eastern Region conducts operations.
These States were selected to test the consistency of operations in multiple geographic
areas of APHIS’ Eastern Region. We also performed additional testing at the Harrisburg,
Pennsylvania area office, to review adjusted transactions to ensure that the adjustments
were made within VS program accounts. Adjustments are required for transactions that
are rejected because of invalid accounting information.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our audit objective.
Cindy Smith                                                                               3




AUDIT RESULTS

Based on our review of the appropriations language and discussions with APHIS
officials, we concluded that APHIS has the authority to transfer funds between accounts
at the program level. We determined that the transfers performed are in accordance with
the appropriations language and APHIS guidelines. Further, nothing came to our
attention to cause us to question APHIS’ accounting practices. Based on our testing, we
did not find that APHIS was mischarging expenses.

Under the authority as described in the appropriations law for fiscal year (FY) 2006 and
the continuing resolution for FY 2007, funding is allocated to APHIS noting those funds
with specific purposes and does not restrict APHIS from performing transfers between
accounts within VS. Therefore, we concluded that APHIS is authorized to disperse
funding between accounts within VS.

To verify funding accounts represent those specific to APHIS-VS, we judgmentally
selected adjusted transactions from four States within the Eastern Region. For our
sample, we determined whether the adjustments were warranted. Adjustments are
required for transactions that are rejected because of invalid accounting information.
Reasons for rejected transactions include, but are not limited to, invalid accounting codes,
unintentional human error, and incorrect travel requests. We were able to trace the
corrected transactions to supporting documentation. The adjustments were between VS
program accounts.

APHIS accurately records time and attendance information as submitted by its
employees. At the Pennsylvania area office, we reviewed documentation to illustrate
how an employee’s time is recorded. This information is tracked by the employee in a
spreadsheet and then entered by the appropriate APHIS official into the time and
attendance system. Also, we analyzed all adjustments (i.e., time and attendance and
accounting adjustments) completed and submitted to the Eastern Regional office staff
during the FY 2007 processing. We observed that these adjustments had a valid reason
and were for APHIS-VS program accounts.

We appreciate the courtesies and cooperation extended to us during this audit.
